Washington, D.C. 20530

February 2, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Eugene Davis v. Herman Quay, Warden,
S.Ct. No. 20-6448
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on November 19, 2020.
Although the government waived its right to file a response, the Court has requested that a
response be filed. The government’s response is now due on February 10, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 12, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6448
DAVIS, EUGENE
HERMAN QUAY, WARDEN

FREDERICK WILLIAM ULRICH
FEDERAL PUBLIC DEFENDER'S OFFICE
100 CHESTNUT STREET
3RD FLOOR
HARRISBURG, PA 17101
717-782-2237
FRITZ_ULRICH@FD.ORG

